     August 26, 2005




 Oversight Review
Quality Control Review of Air Force Audit
Agency’s Special Access Program Audits
(Report No. D-2005-6-009)




                Department of Defense
            Office of the Inspector General
  Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Office of Audit
  Policy and Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of Audit Policy and
  Oversight at (703) 604-8760 or fax (703) 604-9808. Ideas and requests can also be mailed
  to:

                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1015)
                                 Arlington, VA 22202-4704




Acronyms
AFAA          Air Force Audit Agency
AIC           Auditor-In-Charge
GAS           Government Auditing Standards
NAS           Naval Audit Service
PCIE          President’s Council on Integrity and Efficiency
SAP           Special Access Program
Appendix A. Scope and Methodology

        We limited our review to the adequacy of AFAA SAP auditors’ compliance with
quality policies, procedures, and standards. We judgmentally selected 3 SAP audits from
a universe of 27 formal reports issued by AFAA SAP auditors in FYs 2002, 2003, and
2004, and tested each audit for compliance with the AFAA system of quality control.
The Naval Audit Service conducted a review of the AFAA internal quality control system
for non-SAP audits and/or attestation engagements and is issuing a separate report. The
Assistant Inspector General for Audit Policy and Oversight will issue an overall opinion
report on the AFAA internal quality control system that will include the combined results
of the reviews of SAP and non-SAP audits.

In performing our review, we considered the requirements of quality control standards
and other auditing standards contained in the 2003 Revision of the Government Auditing
Standards (GAS) issued by the Comptroller General of the United States. GAS 3.52
states:

      The external peer review should determine whether, during the period under
      review, the reviewed audit organization’s internal quality control system was
      adequate and whether quality control policies and procedures were being
      complied with to provide the audit organization with reasonable assurance of
      conforming to applicable professional standards. Audit organizations should take
      remedial, corrective actions based on the results of the peer review.

We conducted this review in accordance with standards and guidelines established in the
Draft 2004 President’s Council on Integrity and Efficiency (PCIE) “Guide for
Conducting External Peer Reviews of the Audit Operations of Offices of Inspector
General.” We modified the Guide to ensure consistency with the Naval Audit Service
review of non-SAP audits, and to reflect the unique nature of auditing within a SAP
environment. We interviewed AFAA auditors and their managers, reviewed AFAA
internal audit-related policies and procedures. We performed this review in May 2005 at
three AFAA field offices

      We used the following criteria to select the audits under review:

      • Worked backward starting with FY 2004 audits in order to review the most
        current quality assurance procedures in place.
      • Eliminated Base Realignment and Closure audits because they are not
        considered typical audits.
      • Avoided audits with multiple SAPs associated with the audit for ease of access.
      • Avoided audits that have the same or similar titles to ensure review of multiple
        types of projects.



                                                 3
The following table identifies the specific reports reviewed.

    Report Number              Date                             Title
 F2004-0004-FA0900         26 Jan 2004     “Cash Controls”

 F2004-0005-FA0900         4 Jun 2004      “Financial and Contracting Management”

 F2004-0007-FA0900         16 Jul 2004     “Support Agreements”



Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures,
departures can result from misunderstanding of instructions, mistakes of judgment,
carelessness, or other human factors. Projecting any evaluation of a quality control
system into the future is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with procedures
may deteriorate.




                                             4
Appendix B. Comments, Observations, and
            Recommendations

       We are issuing an unqualified opinion because this is the first external peer review
for AFAA SAP audits and the issues we identified were not cumulatively significant to
the reports’ findings, conclusions, and recommendations. Overall, we found that AFAA
could improve the quality control system and guidance for SAP audits related to the areas
of Independence, Audit Planning, Supervision, Evidence and Audit Documentation,
Reporting, and Quality Assurance. Implementing the recommendations identified below
would improve the quality control system and help maintain an unqualified opinion.

Independence. GAS 3.03 states that audit organizations and individual auditors “should
be free both in fact and appearance from personal, external, and organizational
impairments to independence.” AFAA Instruction (AFAAI) 65-103, “Audit
Management and Administration,” requires auditors to sign an Independence Statement
at the beginning of each audit to “certify there are no relationships and beliefs that might
cause the auditor or supervisor to limit the extent of the inquiry, limit disclosure, or slant
audit findings in any way.”

We found no indications of impairment during our review. However, there were no
Independence Statements for two of the three audits. The third audit had an
Independence Statement that had been backdated by the auditor, who used a version of
the AFAA Independence Statement that was not in effect until April 2004, after the date
of his signature – August 2003.

The AFAA Chief, Special Programs Division stated that he had been unaware of the
requirement for project-specific Independence Statements until the fall of 2003. He
relied on annual Financial Disclosure Statements and the AFAA Annual Certification
acknowledging the need to report any conflicts of interest to verify the auditors’
independence. However, AFAA had the project-specific Independence Standard in place
since September 2002 and all three projects were initiated after this date. AFAA Policy,
Oversight, and Systems Division personnel stated to us that new policy is placed on the
AFAA intranet homepage, and disseminated in an e-mail to all AFAA personnel.




                                              5
Audit Planning. GAS 7.02 states that “work is to be adequately planned,” and
GAS 7.07 states that “planning should be documented.” GAS 7.41 requires auditors to
document the planning, and states:

       [T]he form and content of the written audit plan will vary among audits, but
       should include an audit program or project plan, a memorandum, or other
       appropriate documentation of key decisions about the audit objectives, scope, and
       methodology and of the auditors’ basis for those decisions. It should be updated,
       as necessary, to reflect any significant changes to the plan made during the audit.

AFAAI 65-101, “Internal Audit Procedures,” contains guidance on audit planning as well
as a template “audit planning program” that all AFAA auditors are required to use during
audits. AFAAI 65-101 states that audit managers should:

       …continuously monitor auditor progress during the planning phase, provide
       assistance as needed, and assure the auditor conducts the planning phase in
       accordance with AFAA policies and procedures; and ensure the auditor uses the
       Audit Planning Program and either completes each step or provides rationale for
       not completing the step.

We found insufficient documentation related to audit planning in all three AFAA SAP
audits we reviewed. For example, one of the audits did not have an audit program and
another did not have supervisory approval for audit steps that were either not completed
during the audit or were marked “N/A.”

Supervision. GAS 7.45 requires staff to be properly supervised and GAS 7.47 states that
supervisory reviews of audit work should be documented. AFAAI 65-103 requires
supervisors to use an “Audit Review Record” to document the supervision and
supervisory reviews. According to AFAAI 65-103, the review record must include the
supervisor’s initials and date, and the working papers must contain “clear evidence” of
supervisory review. We found that several working papers in each of the audits were
either not reviewed in a timely manner or not reviewed at all by a supervisor. The AFAA
Chief, Special Programs Division stated that since the office locations are widely
scattered across the U.S., he visits each office only three to four times per year. In two
audits, this prevented him from being able to review the working papers until five months
after they were written. This is mitigated somewhat by the fact that all of the auditors at
the AFAA SAP field offices are senior auditors.

We recognize that the SAP audit environment presents challenges for complying with
some of the AFAA quality processes. However, supervision is a key government
auditing standard and a key element of an effective quality program. Supervisors must
find ways to provide proper supervision even within such an environment.




                                                   6
Evidence and Audit Documentation. Working papers are used to organize, prepare,
and collect relevant evidence and documentation during an audit. GAS 7.66 requires that
auditors prepare and maintain audit documentation, and that the audit documentation
should contain support for findings, conclusions, and recommendations before auditors
issue their report. GAS 7.68 states that the audit documentation forms the principal
support for the auditors’ report.

AFAAI 65-103 requires auditors to document the work performed to support significant
conclusions and judgments, including descriptions of transactions and records examined
that would enable an experienced auditor to examine the same transactions and records.
AFAAI 65-103 provides the following guidelines for working papers (excerpt): “The
working papers should be understandable without supplementary oral explanations.
Anyone using or reviewing the working papers should be able to readily determine their
purpose and source, the nature and scope of the work performed, and the auditor’s
conclusions.”

Although we found AFAA SAP audit working papers contained sufficient, competent,
and relevant evidence to support judgments and conclusions in the reports, improvements
could be made to audit documentation. We found that 6 of the 15 judgmentally selected
facts and figures we reviewed in one report, 10 of 15 in another report, and 1 of 15 in the
third report could have been better supported. Some of the deficiencies we noted during
our review were:

  • Source documents were missing information about the provider of the source
    documents, and in some cases it was impossible to determine whether a document
    was auditor-generated or a source document.

  • Several figures in the report had no audit trail to source documents. We eventually
    identified the source documents and verified the data based on our review of source
    documents.

  • A figure in the report referenced back to a note written by the auditor that did not
    include any source information. During our review, the auditor attributed the
    statement to management, but there was no attribution on the note or in the report.
    With such attribution a reviewer of the working papers or of the report can not
    know if the management that provided the information was a reliable source.

  • Working papers, such as background information and briefing charts, were missing
    the AFAA-required elements of purpose, source, and conclusion.




                                             7
Reporting. GAS 8.45 states that “… evidence included in audit reports should
demonstrate the correctness and reasonableness of the matters reported…” GAS provides
a best practice to help ensure this standard:

      One way to help ensure the audit report is accurate is to use a quality control
      process such as referencing… in which an experienced auditor who is
      independent of the audit verifies that statements of fact, figures, and dates are
      correctly reported, that findings are adequately supported by the audit
      documentation, and that the conclusions and recommendations flow logically
      from the support.

AFAAI 65-101 requires auditors to obtain an independent reference review (IRR) before
the draft report is issued to management. The guidance requires the independent
referencers to trace information in the cross-referenced draft report through the summary
working papers to the supporting working papers to determine that they are consistent
with and supported by the working papers and to “be alert to statements in the report
which seem illogical or lack clarity, ensure the team chief has reviewed all supporting
working papers and cleared any review notes, and refuse to sign the IRR record until the
team chief has finished reviewing and signed off on the working papers.”

We found that the three AFAA SAP audit reports generally met the GAS reporting
standards. However, none of the SAP reports we reviewed complied with the AFAA
requirements for IRRs. None of the three reports received an IRR before the draft report
was issued to management, and two of the three reports received no IRR. The AFAA
Chief, Special Programs Division stated that he was unable to conduct IRRs before the
draft reports were issued due to a lack of resources within the SAP environment, and that
he relied on the experience of the auditors to ensure the quality of the audits.
We found that the one completed IRR was not adequately documented; specifically, the
referencer’s signature on the IRR document was not dated so we were not able to
ascertain whether the IRR was completed before the draft report was issued. Also, the
referencer did not indicate any concerns during the IRR; however, we found
discrepancies with the references, such as a figure cited in the report as representing
fourth quarter data that was documented in the working papers as representing the first,
second, and third quarters only.

We found misleading or unsupported information in the final reports of the two audits
that did not have IRRs. Although none of these inaccuracies affected the overall
conclusions of the reports, they demonstrate instances that an IRR might have alerted the
auditors to before the reports were issued to management. Specifically, we found:

  • A figure cited in the report as “a contract was established in April 2000 for $421.0
    million”; however, $421.0 million was the amount of the contract after several
    contract modifications; the amount of the contract at the date of establishment was
    $402.0 million.


                                                 8
  • A figure cited in the report as $330,000 was documented in the working papers as
    $300,000.

  • A figure cited in the report as 52 percent was documented in the working papers as
    53 percent.

Over time if errors continue to be found in reports, the report recipients may begin to
question significant conclusions of the reports. AFAAI 65-101 does not exclude the IRR
from the SAP audits and does not define circumstances in which an IRR need not be
done.

Quality Assurance. GAS 3.50 requires than an audit organizations internal quality
control system should include procedures for monitoring, on an ongoing basis, whether
the policies and procedures related to the standards are suitably designed and are being
effectively applied. This is often referred to as an internal quality assurance program.

AFAAI 65-105, “Internal Quality Control Review Program,” provides guidance on the
AFAA internal quality control program, and notes that it consists of four components:
supervision, independent referencing, internal quality control reviews, and external
quality control reviews. AFAA conducts three types of internal reviews: functional,
management, and quality assurance. Quality assurance reviews evaluate whether AFAA
activities adhere to applicable government auditing standards and internal policies and
procedures for conducting audit projects. The AFAA internal quality control review
program uses a team approach to accomplish this type review and a checklist based on
GAS and AFAA policies and procedures. The AFAA Policy, Oversight, and Systems
Division develops an annual review plan that describes the functional, management, and
quality assurance reviews planned for the next year. The AFAA Policy, Oversight, and
Systems Division also prepares a 3-year review plan for quality assurance reviews which
ensures each AFAA audit division/region receives a quality assurance review at least
once during the 3-year cycle.

AFAAI 65-105 does not exempt or waive SAP audits. However, AFAA personnel
involved with the internal quality control review program stated that they do not conduct
quality assurance reviews of SAP audits. AFAA has not conducted a quality assurance
review of a SAP audit in at least 10 years, specifically due to the limitations on access
because of security requirements.

Conclusion. SAP audits seldom get the monitoring or oversight of non-SAP audits
because of the security requirements. AFAA guidance on the quality control system does
not specifically address SAP audits. The AFAA Chief, Special Program Division has
stated that he is unable to fully implement key elements of the AFAA quality control




                                            9
system because of security-related limitations. We recognize the challenges that result
from these limitations; however, AFAA needs to re-emphasize the importance of
complying with the key elements of the quality control system.

Although we did not find that any of the deficiencies we noted would individually or
collectively justify an opinion other than unqualified, AFAA needs to ensure on an
ongoing basis that their internal quality control system within the SAP environment taken
as a whole still provides reasonable assurance that GAS is met.

      Recommendations. We recommend that the Air Force Auditor General:

      1. Stress to SAP auditors the importance of complying with existing guidance and
         procedures related to independence, specifically in completing independence
         statements.

          Management Comments. The AFAA concurred in principle with the
          recommendation and stated that while they agree improvements were needed
          to document their independence on each project, the AFAA does not believe
          recommending a specific software package was inappropriate. The AFAA
          stated that the audit evaluated various processes used at several locations and
          recommended streamlining and improving the entire operation. At the
          Command-level, the newly developed software package allowed the auditor to
          easily reconcile total cash accountability. However, reconciliation was
          difficult and labor intensive at subordinate units because the tracking systems
          were not as effective. As a result, the AFAA report stated that the units used
          different procedures and recommended the Command direct use of the
          Command-level software package. While working paper documentation could
          have been better, the AFAA stated that they complied with GAS 3.14 and had
          sufficient evidence to justify recommending the Command-level system. The
          Special Programs Division Chief will issue a memorandum by
          September 30, 2005, to all SAP auditors stressing the importance of complying
          with guidance related to independence, including preparing independence
          statements and providing advice to management.

          Reviewer Response. Management comments meet the intent of the
          recommendation. We revised the report including this recommendation based
          on comments to the draft report related to circumstances in which the auditor
          provided advice to the command. No further comments are required.




                                           10
2. Ensure that the SAP auditors and supervisors are timely made aware of
   changes in policies, practices and guidance.

   Management Comments. The AFAA concurred with the recommendation
   and stated that the Special Programs Division Chief will issue a memorandum
   by September 30, 2005, directing all SAP auditors to periodically review the
   AFAA web site to identify changes in policies, practices, and guidance.

   Reviewer Response. Management comments are responsive.

3. Re-emphasize to SAP auditors and supervisors the importance of complying
   with the key elements of the AFAA quality control system, specifically related
   to audit planning, supervisory reviews, and independent reference reviews.

   Management Comments. The AFAA concurred with the recommendation
   and stated that for audit planning the Special Programs Division Chief will
   issue a memorandum by September 30, 2005, to all SAP auditors emphasizing
   the importance of complying with planning guidance contained in
   AFAAI 65-101. Regarding supervision, the AFAA stated that the Special
   Programs Division Chief will make working paper reviews a higher priority
   and will delegate supervisory responsibilities to a GS-14 for some projects. In
   addition, the Division Chief will issue a memorandum by September 30, 2005,
   to all SAP auditors directing them to submit periodic project status reports and
   document project related telephone conversations with the Division Chief.
   For independent referencing, although very important, the AFAA stated that
   performing independent referencing on every Special Programs Division
   project may not be practical for reasons such as security considerations and
   most locations have only one auditor and temporary duty travel may not be
   cost-effective. However, the AFAA will revise guidance by
   September 30, 2005, to give the Division Chief the flexibility to decide which
   projects warrant independent referencing depending on project complexity,
   working paper location, and security classification. If the Division Chief
   decides independent referencing is not warranted, a memorandum for record
   supporting the decision will be required. Also, independent referencing on all
   projects at locations with more than one auditor will be required.

   Reviewer Response. Management comments meet the intent of
   recommendation.




                                    11
4. Establish as part of its internal quality control review program, internal quality
   assurance reviews of selected SAP audits in order to comply with GAS 3.50.

   Management Comments. The AFAA concurred in principle with the intent
   of the recommendation and stated while they agree including SAP audits in
   quality assurance reviews would add quality control, potential benefits must be
   weighed against security implications. As an alternative, the Division Chief
   will have senior personnel perform complete reviews of selected projects using
   AFAA quality assurance review checklists and report results to the Division
   Chief and Auditor General.

   Reviewer Response. Management comments meet the intent of
   recommendation. We recognize that the SAP audits could not necessarily be
   treated the same as non-SAP audits in the internal quality assurance program.
   The AFAA alternative procedures meet the intent of GAS for on-going
   monitoring.




                                      12
Appendix C. Management Comments




                   13
Final Report
 Reference




Revised at
pg. 11




Revised
Report at
pg. 6




               14
15
